No. 20-914
In the

Supreme Court of the United States
TNT CRANE & RIGGING, INC.,
Petitioner,
v.
OCCUPATIONAL SAFETY AND
HEALTH REVIEW COMMISSION, et al.,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Fifth Circuit

BRIEF OF AMICUS CURIAE
THE SPECIALIZED CARRIERS
& RIGGING ASSOCIATION
IN SUPPORT OF PETITIONER
Jonathan M. Bernstein
Counsel of Record
Goldberg Segalla LLP
8 Southwoods Boulevard, Suite 300
Albany, New York 12211
(518) 463-5400
jbernstein@goldbergsegalla.com
Counsel for Amicus Curiae
301485

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . ii
I. INTEREST OF AMICUS CURIAE . . . . . . . . . . . . . 1
II. SUMMARY OF THE ARGUMENT  . . . . . . . . . . . . 3
III. ARGUMENT  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
A. The 2010 Crane Standards Expressly
D e f i ne t he R ole s / R e sp on s i bi l it i e s
o f Mu lt ip l e Ent i t i e s a n d Pe r s on s
Involved in a Crane Lift  . . . . . . . . . . . . . . . . . . . . 4
B. The Review Commission Decision Negates
the Plain Text of the OSHA Ground
Conditions Standard and Seeks to Hold
Crane Rental Companies Responsible
for Conditions Over Which They Have
Minimal, if Any, Ability to Control and Were
Never Directed to Control  . . . . . . . . . . . . . . . . . . 8
C. The Underlying Decision Will Cause
U n c e r t a i n t y, C o n f u s i o n , a n d a
Prohibitive Increase in Costs to Crane
Rental Companies  . . . . . . . . . . . . . . . . . . . . . . . . 10
IV. CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

ii
TABLE OF CITED AUTHORITIES
Page
Statutues and Other Authorities
29 C.F.R. § 1926  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
29 C.F.R. § 1926.1401 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
29 C.F.R. § 1926.1402 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
29 C.F.R. § 1926.1402(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . . 5
29 C.F.R. § 1926.1402(b) . . . . . . . . . . . . . . . . . . . . . passim
29 C.F.R. § 1926.1402(c) . . . . . . . . . . . . . . . . . . . . . . . 5, 6, 7
29 C.F.R. § 1926.1402(c)(1) . . . . . . . . . . . . . . . . . . . . . 3, 6, 9
29 C.F.R. § 1926.1402(c)(2) . . . . . . . . . . . . . . . . . . . . . . . . . 6
29 C.F.R. § 1926.1402(d) . . . . . . . . . . . . . . . . . . . . . . . . . 5, 7
29 C.F.R. § 1926.1402(e) . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Cranes and Der r icks i n Const r uction,
75 Fed. Reg. 47905-48177 . . . . . . . . . . . . . . . . . . . . . . . 4
Cranes and Der r icks i n Const r uction,
75 Fed. Reg. 47906 (Aug. 9, 2010) . . . . . . . . 8, 9, 10, 12
Sup. Ct. R. 30.1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

iii
Cited Authorities
Page
Sup. Ct. R. 37.2(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Sup. Ct. R. 37.6 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

1
I.

INTEREST OF AMICUS CURIAE

The Specialized Carriers & Rigging Association
(“SC&RA” or “Association”) respectfully submits this
amicus curiae brief in support of the petition for certiorari
filed by TNT Crane & Rigging, Inc. (“TNT”).1 The
arguments set forth herein were unanimously approved
on January 4, 2021, by the SC&RA Crane and Rigging
Group Governing Committee.
After reasonable investigation, the SC&RA believes
that no officer or director or member of the Association
who voted in favor of filing this brief, nor any attorney
associated with any such officer, director or committee
member in any law or corporate firm, represents a party
to this litigation.
The SC&RA is a seventy-four-year-old association
with over 1,400 member companies in 46 nations,
whose interests primarily lie in the crane, rigging,
and specialized transportation industries. The SC&RA
1. Pursuant to Sup. Ct. R. 37.6, SC&RA states that no counsel
for a party authored this brief in whole or in part, and no counsel
or party made a direct monetary contribution intended to fund
the preparation or submission of this brief. No person other than
SC&RA made a monetary contribution to its preparation and
submission. TNT is a paying member of SC&RA but only SC&RA
determined and paid for the preparation of this submission.
Pursuant to Sup. Ct. R. 37.2(a), SC&RA states that all of
the parties have consented in writing to the filing of the brief.
Further, the counsel of record for all parties received notice of
SC&RA’s intention to file an amicus curiae brief at least 10 days
prior to the due date for the amicus curiae brief as extended by
Sup. Ct. R. 30.1.

2
hosts four national annual events and, in the course of
those events and otherwise, provides education, safety
resources, reference tools, and advocacy on behalf of the
industries it represents. The SC&RA and its members
are intimately involved with matters impacting the crane
industry, including federal and state regulatory issues,
and provide “the voice” of the industry. The SC&RA’s
“Crane & Rigging Group” has multiple ongoing task
forces and includes the following committees: Safety
Education and Training Committee; Tower Crane
Committee; Governing Committee; Labor Committee;
and Nominating Committee.
Especially relevant here, a representative from the
SC&RA was one of the 23 persons who served on the
Cranes and Derricks Negotiated Rulemaking Advisory
Committee (“C-DAC” or “the Committee”) that developed
the OSH A Cranes and Der r icks in Construction
Standards, known as “Subpart CC” or, for purposes of
this brief, “the 2010 Crane Standards.” See 29 C.F.R.
§ 1926 Subpart CC. In addition, the responsibilities of the
many different entities that may be present on a crane
site are often the subject of presentations at SC&RA
conferences, webinars, and other communications with
members. The fact that so many different entities may
be involved with a single lift makes the crane industry
unique – and largely distinguishable from other trades and
industries. Furthermore, the crane industry, unlike most
other construction trades, has its own OSHA Construction
Standards Subpart and detailed standards addressing
seemingly everything “A” to “Z” on a crane site.

3
II. SUMMARY OF THE ARGUMENT
The 2010 Crane Standards, specifically, 29 C.F.R.
§ 1926.1402(b) and (c)(1), clearly state – on their face – that
the “controlling entity” (not a crane rental company) is
responsible for the ground conditions on a crane site. Yet,
in the underlying matter, the Occupational Safety and
Health Review Commission (“the Review Commission”)
allowed a crane rental company, TNT, to be found in
violation of the ground conditions standard. The case now
before this Court is one in which there was no dispute
regarding who the controlling entity was – it was not
TNT, the crane rental company. For that reason, the
underlying Review Commission decision is contrary to
the plain text of the OSHA ground conditions standard
and, if not reversed, provides dangerous and harmful
precedent to the industry inasmuch as it undercuts the
well-defined roles and responsibilities for which the 2010
Crane Standards were specifically created to clarify.
The OSHA rulemaking process often spans many
years and involves hundreds of hours of careful
deliberation – something no less true for the 2010 Crane
Standards, a process that took from start to finish over
15 years. The OSHA rulemaking process for Subpart CC
took well over eight years (2002-2010), with additional rule
amendments occurring thereafter (2010-2018). Although
the OSHA standards themselves are sufficiently clear to
show the Review Commission decision is incorrect to the
extent it seeks to hold a crane rental company liable as
a “controlling entity” (and, by extension, responsible for
ground conditions), numerous comments set forth in the
lengthy 273-page final OSHA rule in the Federal Register
confirm the intended meaning of the final OSHA standard.

4
See Cranes and Derricks in Construction; Final Rule, 75
Fed. Reg. 47905-48177.
III. ARGUMENT
A.

The 2010 Crane Standards Expressly Define the
Roles/Responsibilities of Multiple Entities and
Persons Involved in a Crane Lift.

The crane industry is unlike many other industries
because the multiple roles and responsibilities of those
associated with a crane lift are identified and well-defined
in not only the OSHA standards, but also in consensus
standards that have existed for decades, years before
OSHA was created with the Occupational Safety and
Health Act of 1970. An understanding of these roles and
responsibilities, coupled with the realities of a crane job,
are essential to understand why the issue in dispute is of
critical importance to the industry.
The crane industry has enjoyed a long history of
focus and attention, among other things by virtue of
a continuous, evolving set of consensus standards and
regulations. In 1916, over 100 years ago, an ASME
Committee on the Protection of Industrial Workers
presented an 8-page Code of Safety Standards for Cranes
at the annual meeting of the ASME.
More recently, in 2018, ASME released its updated
“Mobile and Locomotive Cranes” B30.5 standards. See
ASME B30.5-2018. Those standards identify the following
entities/persons in a crane lift and each’s discrete (and
oftentimes exclusive) roles/responsibilities before, during,
and after a crane lift: “Crane Owner,” “Crane User,”

5
“Site Supervisor,” “Lift Director,” “Crane Operator,”
and “Rigger.” With respect to ground conditions, the
ASME B30.5 standards declare that the responsibilities
of the Site Supervisor (not the Crane Operator or Crane
Owner) “shall” include “ensuring that the area for the
crane is adequately prepared” including, among other
things, “levelness, surface conditions, support capacity,
… excavations, slopes, underground utilities, [and]
subsurface construction.” (See ASME B30.5-3.1.3.2.1,
“Site Supervisor”). Notably, “[t]he operator shall not
be responsible for hazards or conditions that are not
under his direct control and that adversely affect the lift
operations.” (See ASME B30.5-3.1.3.3, “Responsibilities
of Crane Operators”). The B30.5 standards have been
developed and updated over the years by committees of
subject matter experts. These experts have a deep level
of expertise, commitment, and knowledge in the industry.
Similarly, the 2010 OSHA Crane Standards expressly
allocate responsibilities among multiple persons and
entities on a crane site. OSHA carefully defines “ground
conditions” as “the ability of the ground to support the
equipment (including slope, compaction, and firmness).”
29 C.F.R. § 1926.1402(a)(1). This definition exclusively
focuses on the ground’s ability to support the crane and
does not focus on the means, methods, or manner in which
the crane may be set up itself. Section 1926.1402(b) sets
forth the general ground conditions rule and sections
1926.1402(c)-(d) allocate the responsibly for complying
with the rule to the controlling entity (and others if it is
determined there is no controlling entity). In no instance
is the responsibility for ground conditions given to the
crane rental company.

6
The pertinent sections are as follows:
1926.1402(b)
The equipment must not be assembled or
used unless ground conditions are firm,
drained, and graded to a sufficient extent so
that, in conjunction (if necessary) with the
use of supporting materials, the equipment
manufacturer’s specifications for adequate
support and degree of level of the equipment
are met. The requirement for the ground to be
drained does not apply to marshes/wetlands.
1926.1402(c)
The controlling entity must:
1926.1402(c)(1)
Ensure that ground preparations necessary to
meet the requirements in paragraph (b) of this
section are provided.
1926.1402(c)(2)
Inform the user of the equipment and the
operator of the location of hazards beneath
the equipment set-up area (such as voids,
tanks, utilities) if those hazards are identified
in documents (such as site drawings, as-built
drawings, and soil analyses) that are in the
possession of the controlling entity (whether at
the site or off-site) or the hazards are otherwise
known to that controlling entity.

7
1926.1402(d)
If there is no controlling entity for the project,
the requirement in paragraph (c)(1) of this
section must be met by the employer that has
authority at the site to make or arrange for
ground preparations needed to meet paragraph
(b) of this section.
1926.1402(e)
If the A/D director or the operator determines
that g round conditions do not meet the
requirements in paragraph (b) of this section,
that person’s employer must have a discussion
with the controlling entity regarding the
ground preparations that are needed so that,
with the use of suitable supporting materials/
devices (if necessary), the requirements in
paragraph (b) of this section can be met.
Multiple hazards may exist at a crane site in
connection with crane operations, including below the
ground hazards, at ground hazards, and above ground
hazards. The OSHA ground conditions standard speaks
to below-ground hazards. The plain meaning of the
definition of ground conditions – in conjunction with
1926.1402(c) – dictates that the controlling entity is the
entity responsible for any such potential hazards. Section
1926.1402(b) identifies a particular hazard and, in general
terms, indicates that such hazard must not exist. Sections
1926.1402(c)-(d), on the other hand, state which entities
on a crane site are responsible for the hazards. None of
these sections place an affirmative responsibility on the
crane rental company and/or its operator as the entity

8
responsible for ground conditions. This is especially true
in a case such as the underlying matter in which there was
no refuting that a controlling entity was on site.
B. The Review Commission Decision Negates the
Plain Text of the OSHA Ground Conditions
Standard and Seeks to Hold Crane Rental
Companies Responsible for Conditions Over
Which They Have Minimal, if Any, Ability to
Control and Were Never Directed to Control.
In the instant matter, there is no refuting that
there was a general contractor on site and that the
general contractor squarely fit within the definition of a
“controlling entity.” See 29 C.F.R. § 1926.1401 (defining
“controlling entity” as “an employer that is a prime
contractor, general contractor, construction manager or
any other legal entity which has the overall responsibility
for the construction of the project -- its planning, quality
and completion.”). Under no stretch of the imagination
can a crane rental company such as TNT be deemed a
controlling entity. Indeed, as the Fifth Circuit’s decision
stated, the facts are not in dispute – TNT was a crane
rental subcontractor that subcontracted with the general
contractor.
In addition to the unambiguous text of the OSHA
ground conditions standard, the final OSHA rule for
Subpart CC reveals the thought process underlying the
final standard. As succinctly stated in the final rule,
section 1926.1402 “places responsibility for ensuring that
the ground conditions are adequate on the controlling
entity.” Cranes and Derricks in Construction, 75 Fed.
Reg. 47906, 47912 (Aug. 9, 2010). Furthermore, the

9
Committee identified a problem in holding the crane
rental company responsible for ground conditions – that
being – “Equipment is commonly brought on site by a
subcontractor, who typically has neither control over
ground conditions nor knowledge of hidden hazards.” Id.
at 47931. Acknowledging that “crane tip-over incidents
caused by inadequate ground conditions are a significant
cause of injuries and fatalities,” and in view of the “hidden
nature of these hazards,” the Committee declared that
section 1926.1402(c)(1) “requires the controlling entity
to ensure that ground preparations necessary to meet
the requirements in paragraph (b) of this section are
provided.” Id. at 47932-47933.
The following comments in the final OSHA rule
further illustrate and underscore why the controlling
entity and not the crane rental company (such as TNT in
the instant matter) may be subject to a violation of section
1926.1402(b):
The Committee determined that it is necessary
to specify who will have ground condition
responsibility because in many instances the
parties are unable to agree on who will have
(or has) that contractual responsibility, with
the result that often no one corrects inadequate
ground conditions.
In the Committee’s view, the crane user and
operator typically do not have the equipment
or authority to make such preparations. In
contrast, the controlling entity, due to its
control of the worksite, has the requisite
authority and is in the best position to
arrange for adequate ground conditions.

10
Id. at 47933 (emphasis added).
*****
To permit a controlling entity to divest itself
of its ground condition responsibilities would
unduly fragment responsibility for ground
conditions, thus defeating one of the goals of
the section.
Id. at 47935.
C. T he Und e rly i n g D e ci sion Wi l l Cau s e
Uncertainty, Confusion, and a Prohibitive
Increase in Costs to Crane Rental Companies.
The SC&RA requests that this Court grant certiorari
as fundamental notions of reasonableness and fairness
require a reversal of the underlying decision. Consistent
with the purpose of the negotiated rulemaking process,
the 2010 OSHA Crane Standards were developed by
a committee comprised of members representing the
interests of those stakeholders expected to be significantly
affected by the rule. SC&RA members were included on
that committee as subject matter experts. Accordingly, the
goal of the negotiated rulemaking process was – and will
always remain – to develop a rule representing a consensus
of all of the interests. The underlying Review Commission
decision, however, negates the careful deliberation and
consensus that was reached and, what is more, if left
undisturbed will expose crane rental companies to liability
in instances in which such companies are ill-equipped or
positioned to identify any such latent ground condition
hazards.

11
In a majority of construction personal injury actions,
the determination of liability focuses on the elements of a
negligence cause of action. The prevailing law in state tort
actions is that an OSHA violation may be deemed “some
evidence” of negligence. If crane rental companies are now
exposed to OSHA violations for conditions of which they
almost invariably have no notice or control, they will be
subject to a new standard of care that unfairly puts the
focus on an entity (the crane rental company) situated in
the worst – not best – position to identity the condition.
Crane rental companies are, in basic terms, equipment
rental companies. They usually know nothing about a
particular job or project until they are called upon and
asked to supply one or more of their cranes (either with
or without an operator). If a crane operator is included as
a part of the rental agreement, it is unlikely the operator
will have had any prior involvement with the project,
including any pre-construction site communications
and assessments, site-specific hazard identification and
analysis, or the benefit of what has been learned by other
contractors who have been onsite beforehand.
Furthermore, it is critical to keep in mind that the
ground conditions standard – based on the definition
of ground conditions – is primarily focused on subsurface conditions, i.e., conditions that cannot be visually
observed by an operator. As a result, the crane rental
company and operator are in no position to identify
these subsurface hazards and – consistent with what the
OSHA rule declares – must rely upon the controlling
entity. The crane rental company and its operator do not
show up to a job site with the expectation that they are
responsible for determining the sub-surface conditions.
They do not necessarily have the resources to make

12
such a determination or the economy of scale to afford
the tools to make such a determination. Soil studies and
assessments on subsurface conditions are items taken into
consideration well before the crane comes on site. That
is not something that the crane rental company has been
retained to assess.
The reason for making the controlling entity, not
the crane company, responsible for ground conditions is
consistent with allocating responsibility for a potential
safety hazard to the entity best positioned to address/
abate that hazard. In this instance, that entity is/was
the controlling entity. Critically, the final OSHA rule
notes that under the old standard, no one entity would be
responsible and therefore it was unclear who, if anyone,
would address insufficient ground conditions. 75 Fed. Reg.
at 47933, 47934.
If allowed to stand, this vast shift of responsibility
placed onto the crane rental company could adversely
affect the ability to obtain or afford liability insurance
coverage. This transfer of increased responsibility means
an increased risk of being subject to suit and possibly
being held liable. That in turn naturally increases
general liability insurance costs to those in the crane
rental industry due to the need to report such claims
to their insurance carriers. This could also change the
landscape of negotiations with contractors now requiring
rental company contracts contain a provision making the
crane rental company assume responsibility for ground
conditions in conformity with the interpretation of the
OSHA standard. Such a contractual term increases
possible loss transfers onto the crane rental company.
Knowing that ground conditions are the responsibility of

13
the rental company also gives the contractor leverage to
demand in a contract additional insured status on the crane
rental company’s general liability insurance policy, which
in turn increases the risk of claims and thus increases the
cost of obtaining coverage. Thus, these increased costs,
including the possibility of OSHA penalties, can financially
shake and in turn harm the crane rental industry.
IV. CONCLUSION
Simply stated, the underlying Review Commission
decision cannot be reconciled w ith the clear and
unambiguous text of the OSHA ground conditions
standard, which places the responsibility for such hazards
on the controlling entity, not a crane rental company
such as TNT. Furthermore, if the underlying decision is
allowed to stand, an entirely new responsibility for ground
conditions will be thrust upon crane rental companies – a
responsibility contrary to decades of well-established,
well-reasoned allocations of responsibility among the
many entities involved in a crane lift. What is more, unlike
controlling entities, which are well situated to identify
and remedy any ground condition hazards, crane rental
companies often get called to a site to perform a very
discrete scope of work and are not positioned or equipped
to fulfill such a role. The importance of this case goes well
beyond that of TNT. SC&RA members and all contractors
in the crane rental industry are adversely affected by the
Review Commission’s decision. Thus, it is respectfully
requested that the Supreme Court review the underlying
decision.

14
Respectfully submitted
Jonathan M. Bernstein
Counsel of Record
Goldberg Segalla LLP
8 Southwoods Boulevard, Suite 300
Albany, New York 12211
(518) 463-5400
jbernstein@goldbergsegalla.com
Counsel for Amicus Curiae

